<html>
<title> - [H.A.S.C. No. 111-144]INTERAGENCY COORDINATION OF GRANTS AND CONTRACTS IN IRAQ AND AFGHANISTAN: PROGRESS, OBSTACLES, AND PLANS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-144]
 
     INTERAGENCY COORDINATION OF GRANTS AND CONTRACTS IN IRAQ AND 
              AFGHANISTAN: PROGRESS, OBSTACLES, AND PLANS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 23, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                  U.S. GOVERNMENT PRINTING OFFICE
57-261                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
SCOTT MURPHY, New York
                 Drew Walter, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 23, 2010, Interagency Coordination of Grants and 
  Contracts in Iraq and Afghanistan: Progress, Obstacles, and 
  Plans..........................................................     1

Appendix:

Tuesday, March 23, 2010..........................................    31
                              ----------                              

                        TUESDAY, MARCH 23, 2010
     INTERAGENCY COORDINATION OF GRANTS AND CONTRACTS IN IRAQ AND 
              AFGHANISTAN: PROGRESS, OBSTACLES, AND PLANS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Hutton, John, Director, Acquisition and Sourcing Management, U.S. 
  Government Accountability Office...............................     8
Michel, Ambassador James, Counselor to the Agency, U.S. Agency 
  for International Development..................................     6
Moser, William, Deputy Assistant Secretary of State (Logistics 
  Management), U.S. Department of State..........................     5
Motsek, Gary, Assistant Deputy Under Secretary of Defense 
  (Program Support), U.S. Department of Defense..................     3

                                APPENDIX

Prepared Statements:

    Hutton, John.................................................    58
    Michel, Ambassador James.....................................    54
    Moser, William...............................................    50
    Motsek, Gary.................................................    37
    Wittman, Hon. Rob............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    75
     INTERAGENCY COORDINATION OF GRANTS AND CONTRACTS IN IRAQ AND 
              AFGHANISTAN: PROGRESS, OBSTACLES, AND PLANS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Tuesday, March 23, 2010.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good afternoon, and welcome to the House Armed Services 
Oversight and Investigation Subcommittee hearing on Interagency 
coordination on contracts and grants in Iraq and Afghanistan.
    Contracts total tens of billions of dollars per year--over 
50,000 individual contracts annually and well over 200,000 U.S. 
funded contractor personnel in Iraq and Afghanistan. This is 
part of the committee's ongoing oversight in the area of 
contracting in our war zones.
    You may remember we had a very similar panel of witnesses 
almost a year ago. The intention of today's hearing is to check 
back on the progress of the Department of Defense [DOD], the 
Department of State [DOS], and the U.S. Agency for 
International Development [USAID] have made in strengthening 
interagency contract coordination.
    We also intend to discuss some new obstacles and challenges 
that have arisen and discuss potential solutions. One such 
challenge that has come to our attention is the application of 
certain information requirements through the SPOT [Synchronized 
Pre-Deployment and Operational Tracker] system to non-
governmental organizations [NGOs] operating in Iraq and 
Afghanistan under U.S. grants and cooperative agreements.
    Several major NGOs have said the information requirements 
endanger the neutrality of their organizations; endanger the 
safety and security of their Iraqi and Afghan local-national 
employees, and, therefore, endanger their entire operations in 
these countries.
    This subcommittee considers the work of these NGOs, as you 
do, critical to a successful outcome in Iraq and Afghanistan, 
and would like to hear our witnesses' understanding of the 
NGOs' concerns. We would also like to understand if and how the 
agencies intend to address the NGOs' concerns and their 
timetable for doing so.
    This subcommittee recognizes that SPOT is just a tool that 
has been selected to assist the agencies in coordinating and 
collaborating on contracts in Iraq and Afghanistan. We would 
like to understand if and how this tool is helping or not 
helping achieve the broader goal. We want to make sure the 
agencies have the information they need to coordinate, manage, 
and oversee contracts and grants.
    We do not want the collection of this information to be a 
burden to the agencies or their contractors and grantees. And, 
as you all are aware, by statute, the SPOT system is not 
required. In fact, the statute that was passed in the Defense 
bills has been an aggregate requirement for information.
    Ultimately, we would like to ensure our government is doing 
everything it can to help our people and friends in Iraq and 
Afghanistan succeed whether they are in uniform, government 
civilians, supporting the efforts of contractors, or providing 
relief and assistance through NGOs.
    And we will now take Mr. Wittman's statement.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Chairman Snyder.
    And, good afternoon, to our witnesses; I really appreciate 
you taking the time to be here with us today and as a follow up 
to our efforts last year.
    I want to applaud the chairman's initiative in scheduling 
this hearing. And one of the strengths of this subcommittee is 
our persistence and ability to revisit issues after the passage 
of time, to measure progress. And as the chairman noted, we 
have had several hearings last spring on contractors in the 
battlefield. And those hearings highlighted the relatively 
disjointed state of coordination among the principle agencies 
involved--Defense, State and USAID--at a time when a well 
coordinated civilian-military effort is our only hope for 
success.
    Today's hearings will show that we have made progress on 
one key aspect of the issue; namely, developing a database that 
identifies the number of contractors each agency employs. At 
the same time, the fact that we are still working to achieve 
that small step, and are having difficulties including non-
governmental organizations, or NGOs, in that database, shows 
how far away we are from a unified national effort to achieve 
our objectives in Iraq and Afghanistan.
    While much of today's testimony will focus on that SPOT 
database, I am less concerned about the use of a particular 
computer system than in achieving our national objectives in a 
coordinated way. So I look forward to hearing a little more 
about how we can achieve that.
    And even though witnesses are here to discuss how their 
agencies are meeting statutory reporting requirements on 
contractors in Iraq and Afghanistan, I would like for you to 
touch on how well field operations and support are coordinated 
amongst the various agencies, civilian personnel, military 
personnel, and contract employees. And that is our real 
concern--effective implementation of the SPOT or other 
databases is merely a step along the way.
    Ensuring our service men and women are fully supported in 
every way is my chief concern. And I try to keep that into 
perspective as I approach these types of issues.
    So, gentlemen, we look forward to hearing from you today 
and getting your perspective on how we can make sure we most 
effectively meet the needs of our men and women in uniform, in 
theater, and look forward to your testimony.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Mr. Gary Motsek, Assistant Deputy 
Under Secretary of Defense for Program Support; Mr. William 
Moser, Deputy Assistant Secretary of State for Logistics 
Management; Ambassador James Michel, Counselor to the Agency at 
USAID; and Mr. John Hutton, Director of the Acquisition and 
Sourcing Management team at the GAO [Government Accountability 
Office].
    Those bells that you are hearing are--as you may fear, we 
are going to have some votes. But we will start opening 
statements. We may get through one or two, or who knows?
    But we will start with you, Mr. Motsek.

 STATEMENT OF GARY MOTSEK, ASSISTANT DEPUTY UNDER SECRETARY OF 
     DEFENSE (PROGRAM SUPPORT), U.S. DEPARTMENT OF DEFENSE

    Mr. Motsek. Good afternoon, Chairman Snyder, Ranking Member 
Wittman, and Congressman Jones.
    Thank you for this opportunity to appear again before you 
today to discuss the improvements and changes we have made with 
respect to the accountability and visibility of contractors in 
contingency operations, and our way ahead. I have submitted a 
larger written statement for the record, which gives some 
specifics.
    Dr. Snyder. All of your written statements will be made 
part of the record. We will have the clock on. But if you need 
to go beyond that, go beyond that. It is a five-minute clock, 
just to give you an idea where we are.
    Mr. Motsek. I am doing my best to move out smartly.
    As you know, the Department established my office in 2006 
comply with the congressional direction of section 854 of the 
National Defense Authorization Act [NDAA]. Our implementation 
of the Synchronized Pre-deployment Operational Tracker is a key 
aspect to our strategy to institutionalize the program 
management of operational contracting support.
    SPOT is a good example of a distributed enterprise system 
that was developed initially for a single, focused requirement 
which is now being used for much broader purposes than 
originally anticipated. We have established an aggressive 
timeline early to force the registration of SPOT.
    For DOD, we have approximately three-quarters of our 
deployed DOD-contractor population in the CENTCOM [U.S. Central 
Command] area of responsibility [AOR] registered in SPOT. The 
last time I appeared before you, I believe the number was 60 
percent. And we were only talking about, at that time, Iraq and 
Afghanistan. We are now including the entire area of operation 
that CENTCOM has. And this is in keeping with their changing of 
their Joint Contracting Command--the expansion of that mission, 
which we can discuss if you would like. So we have, now, 
contractor personnel located in Dubai, Qatar, and places like 
that, included--plus a large population in Kuwait.
    With the recent expansion of definitions provided by 
Congress last year and the introduction of the classified 
version of SPOT, we expect to see continued increase in the 
State Department and USAID contractor populations, which they 
can discuss.
    DOD's primary challenge remains in the full participation 
of all of our contractor personnel in SPOT. And our particular 
challenge are those contractor personnel--always local-
nationals--that have no access or support to our installations 
over there, but are operating off the installations, but are 
nonetheless paid by U.S. appropriations and, therefore, they 
have to be in the population.
    Our intention is to transition from the resource-intensive 
and dangerous CENTCOM manual census, which we still use as our 
primary numbers-counting document, and to rely on SPOT as soon 
as practical. We have a transition plan in place signed by the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics. But it is conditions-based.
    We will not fully migrate and rely solely on the automated 
census until we are confident that SPOT reflects a true 
representation of our contractor-employee population, and, 
clearly, there are advantages to having real-time access to 
that information.
    Even as we adopt the SPOT database as the census, we will 
still spot check, on a random basis with a manual census, to 
prove that we have good numbers.
    In spite of these challenges, SPOT is being utilized to 
track the drawdown in Iraq, both in terms of DOD civilians and 
contractor populations. The State Department is also using SPOT 
to manage the Civilian Response Corps. Other nations are in the 
final phases of evaluation and adoption of the program. I just 
returned from the United Kingdom. They are already starting to 
utilize the program.
    The SPOT-generated letter of authorization has dramatically 
improved the transportation, medical, and installation-support 
services in their control. Congressionally mandated sub-element 
populations are managed today in both contingency areas. Both 
SOUTHCOM [U.S. Southern Command] and the U.S. mission to 
Haiti's rapid request for the system during the initial stages 
of the humanitarian efforts there attest to its growing 
institutionalization within our government.
    It is important to remember that all of our efforts--or, 
indeed, our wider efforts--are not solely focused on the 
current operations. Congress has made it clear that we are 
institutionalizing these changes in management and oversight 
for future operations as well. We are establishing those 
policies in organizations to permit that to happen.
    And I am ready to answer any further questions. Thank you.
    [The prepared statement of Mr. Mostek can be found in the 
Appendix on page 37.]
    Dr. Snyder. Thank you.
    Mr. Moser.

STATEMENT OF WILLIAM MOSER, DEPUTY ASSISTANT SECRETARY OF STATE 
        (LOGISTICS MANAGEMENT), U.S. DEPARTMENT OF STATE

    Mr. Moser. Mr. Chairman and Congressman Wittman and 
Congressman Jones, I welcome the opportunity to provide you an 
update on the implementation of the Synchronized Pre-deployment 
Operational Tracker at the Department of State.
    Please allow me to, first, express how much we, at the 
State Department, appreciate the support of this subcommittee. 
I had the pleasure of briefing this subcommittee in April 2009 
on SPOT. And I thank you for the invitation to provide you this 
update.
    As the Deputy Assistant Secretary for Logistics Management, 
I am responsible for ensuring that our global logistics 
platform provides consistent, reliable support to the men and 
women who directly implement our foreign policy around the 
world.
    I am pleased to be able to state before you today that the 
implementation of SPOT is a good news story. Legislation 
originated by this body is part of that story. The Department 
of State, working with the Department of Defense and the United 
States Agency for International Development, has made great 
strides in implementing SPOT.
    As of today, the Department of State has 6,381 personnel in 
Iraq and 4,378 in Afghanistan registered in SPOT. These figures 
include both contractors', as well as grantee, information, as 
required by the 2010 National Defense Authorization Act.
    Since the new legislation requires grantee information to 
be put in SPOT, State has successfully worked with the non-
governmental organizations to meet these requirements. In 
January 2009, the Department of State procurement executive 
issued Grants Policy Directive 33, which requires the use of 
SPOT for grantees performing work in Iraq and Afghanistan.
    The Department of State's SPOT program manager also reached 
out to grants officers, grants-officer representatives, and 
grants organizations to provide information, training, and 
alternatives such as our blind-identity format to meet SPOT 
compliance for grantees.
    Due to outreach and education efforts, SPOT implementation 
at State, including NGO input, has proceeded with minimal 
problems. In addition to providing valuable information on 
counts of contractors and grantees to Congress, the Department 
of State is using SPOT to manage and coordinate contracts and 
grants at both strategic and operational levels.
    Using SPOT-generated letters of authorization, State is 
able to grant privileges to contractors and grantees in Iraq 
and Afghanistan, such as medical services, meals, and common-
access cards. To enhance the use of the letters of 
authorization, last year, State purchased the Joint Asset 
Movement Management System--known affectionately as JAMMS--
readers, and installed them in Iraq and Afghanistan.
    State can now track contractor movements in theater, and 
verify work status by scanning individual letters of 
authorization with the JAMMS reader. This added functionality 
has increased oversight of contractors in Iraq and Afghanistan.
    In the future, State and its interagency partners see this 
as a tool to assist in logistical planning. As SPOT matures, 
DOS--the Department of State--sees the level of utility from 
SPOT growing. For example, State will be working with its 
interagency partners to develop the Total Operational Presence 
Support System, TOPSS, which is an enhanced reporting tool that 
will allow State to run custom reports from the SPOT database. 
Examples of these reports may include individual contract 
reports to give names of individuals deployed against the 
contract with duty location at any given time.
    Much has been accomplished by the Department of State and 
its partners in the use of SPOT. SPOT's system enhancements 
will continue as the Department of State, the Department of 
Defense, and the United States Agency for International 
Development continue to work together to improve our 
cooperative efforts in Iraq and Afghanistan.
    This concludes my testimony. And I am happy to answer any 
questions this subcommittee may have.
    [The prepared statement of Mr. Moser can be found in the 
Appendix on page 50.]
    Dr. Snyder. And we will be in recess. I would think we will 
be in the 20-to-30-minute range.
    Mr. Moser. Okay. Thank you.
    [Recess.]
    Dr. Snyder. We will resume. We think we are okay--at least 
for a little while.
    Ambassador Michel, your opening statement, please.

STATEMENT OF AMBASSADOR JAMES MICHEL, COUNSELOR TO THE AGENCY, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ambassador Michel. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Wittman, I appreciate the opportunity 
to join with colleagues from the Department of Defense, 
Department of State, and the Government Accountability Office, 
to discuss the implementation of SPOT. And, at the outset, I 
want to join the other witnesses in expressing appreciation to 
the subcommittee for your continuing interest and vigilance in 
overseeing the legislation.
    We have, I think, made some important steps forward to 
collect the report information that is called for under the 
legislation. And our progress, I think, has benefited 
substantially from your continuing oversight.
    USAID is committed to fulfilling its responsibilities under 
the law to report on the number of contractor and grantee 
personnel in a common database, as provided in the law. And I 
have learned of difficulties that the Agency encountered when 
it first entered into that MOU [memorandum of understanding] 
with Defense and State in 2008.
    While a substantial number of USAID contractor personnel in 
Iraq were registered in SPOT in 2009, there is no question that 
the agency struggled with the effort to apply this system more 
broadly to its programs in Iraq and in Afghanistan.
    And a particular concern, Mr. Chairman, as you noted, has 
been the concern of the NGOs [non-governmental organizations], 
but also the contractor community, about the implications for 
the many thousands of individuals, most of them locally-engaged 
nationals, who work with USAID in implementing local activities 
such as in agriculture, community development, governance, 
humanitarian relief. And we have about 100-130 employees in 
Iraq, who manage the work of almost 1,500 implementing 
personnel who work with contractors and grantees.
    In Afghanistan, the workforce under the contracts and 
grants is even much larger, with about 260 USAID employees 
overseeing more than 20,000 implementing personnel on the 
ground.
    Very few of those people who work under the grants and 
contracts of USAID in Iraq and in Afghanistan have interaction 
with the Department of Defense that would require them to need 
a letter of authorization or other individual identification. 
And USAID has provided the required personal information about 
those in Iraq who do require a letters of authorization.
    And we have entered organizational-level information in 
SPOT about concerned--the grants and the contracts in both Iraq 
and in Afghanistan. And we have had discussions with Defense 
and State colleagues, and with our implementing partners, about 
how to make progress while accommodating the various interests 
and concerns consistent with the law.
    I am pleased to report that, last month, we met among the 
three agencies and arrived at a solution to assure timely and 
accurate reporting through SPOT on the numbers of USAID 
contractor and grantee personnel in Iraq and Afghanistan. This 
reporting will avoid administrative burdens and financial 
burdens of entering unneeded detailed personal information 
about those people working locally throughout the communities 
of Iraq and Afghanistan. But it will fulfill the needs 
contemplated in the legislation.
    The solution, we are confident, conforms with the 
requirements of law and meets the concerns of the agencies and 
also the implementing partners.
    It is true that part of our concern has been the concerns 
of our implementing partners--which we share--that registration 
of individuals in SPOT could be misunderstood in the 
communities where they work and that this could give rise to 
concerns for personal safety. But as a result of the 
interagency agreement that we have reached, three good things 
have happened:
    First, we expect that the administrator of USAID will sign, 
today, the new MOU with State and Defense to provide a clear 
and authoritative basis for our participation in SPOT. Second, 
the technical staffs from Defense and USAID are meeting to 
assure that the operation of the data-entry procedures will 
facilitate the capture of the required information, so that we 
will be able to enter the personal detailed information with 
respect to those implementing partners--employees--who require 
letters of authorization and the necessary information for 
aggregate numbers of those personnel who do not require that.
    The third good thing that has happened is that the 
concerned management offices of the three agencies have agreed 
to meet periodically with a view to coordinating on matters of 
contract administration, and to identify and act on issues of 
common concern.
    So I think that we are making progress; that these 
developments will contribute to better reporting, and to better 
interagency coordination, without substantial additional cost 
or a loss of efficiency. There is no doubt that the 
subcommittee's oversight has been an important factor in the 
progress we have made.
    We welcome your continued interest and support.
    Thank you, sir.
    [The prepared statement of Ambassador Michel can be found 
in the Appendix on page 54.]
    Dr. Snyder. Thank you, Mr. Ambassador.
    Mr. Hutton.

 STATEMENT OF JOHN HUTTON, DIRECTOR, ACQUISITION AND SOURCING 
       MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Hutton. Thank you.
    Mr. Chairman, Ranking Member Wittman, and members of the 
subcommittee, thank you, again, for inviting us here to testify 
on ongoing efforts by DOD, State, and USAID to track 
information on contracts, grants, cooperative agreements, and 
the personnel working under them in Iraq and Afghanistan.
    Given the agencies' extensive reliance on these personnel 
and the services they provide, reliable and meaningful data are 
critical to inform the agency decisions and to improve 
management and oversight.
    While our past work has focused on tracking contracts and 
contractor personnel, our ongoing work now includes grants and 
cooperative agreements in accordance with the Fiscal Year 2010 
National Defense Authorization Act.
    Joined from our prior work, I will first highlight how a 
lack of reliable information has hindered agencies' ability to 
effectively manage and oversee contracts, grants, and 
associated personnel. I will then discuss ongoing agency 
efforts to track such information.
    The challenges of relying on contractors and grantees in 
contingency operations are well established. Our prior reports 
have shown how inadequate information may inhibit planning, 
increase costs, and introduce unnecessary risk.
    To illustrate: Our December 2006 review of DOD contractors 
supporting deployed forces in Iraq showed how a battalion 
commander could not determine the number of contractor-provided 
interpreters supporting his unit, which created challenges in 
planning and carrying out the missions.
    In May 2009, we found that, in Afghanistan, the U.S. 
Government risked duplicating efforts and missing opportunities 
to leverage existing resources because DOD lacked visibility 
into USAID's development projects.
    DOD, State, and USAID agreed to use SPOT to respond to 
congressional direction to track information on contractor 
personnel and grants; and, now, grants, cooperative agreements, 
and their personnel. Agencies have made some progress in 
implementing SPOT, but their efforts still fall short in terms 
of having complete and reliable data to fulfill statutory 
requirements and improve management and oversight.
    Specifically, criteria for which contractor personnel 
should be entered into SPOT varied both across the agencies and 
compared to their agreement. DOD officials in Iraq told us the 
need for a letter of authorization primarily determined whether 
contractor personnel were entered into SPOT. However, not all 
personnel--particularly local-nationals--need letters of 
authorization.
    USAID has not been entering data on local-nationals into 
SPOT, citing concerns for their safety, should the system be 
compromised. To address this concern, DOD is testing a 
classified version of SPOT. But USAID officials have told us 
their limited access to classified computers would restrict the 
utility of a classified system.
    Varying practices on who to enter into SPOT stem, in part, 
from differing views on the value of this personnel data. In 
not requiring its contractors to use SPOT in Afghanistan, USAID 
officials had questioned the need for detailed information on 
these contractors, as they typically have limited interaction 
with U.S. officials, or do not receive government-provided 
support services.
    Similarly, some DOD officials have questioned the value of 
tracking personnel individually, rather than by total numbers, 
given the cost of collecting such detailed information. While 
the mandate calls for, at a minimum, aggregated personnel data, 
SPOT currently requires users to manually enter detailed 
information for each person.
    Because of SPOT's limitations, we and the agencies have 
relied on other sources such as periodic surveys, for 
information on contractor personnel, including those that were 
killed or wounded. However, our prior work has shown these data 
are generally incomplete and unreliable, particularly for 
identifying trends and drawing conclusions.
    Turning to contract information--although some information 
is entered into SPOT, the system cannot yet accurately import 
contract-data elements, such as contract values and 
descriptions of services provided, from FPDS-NG [Federal 
Procurement Data System-Next Generation], the government's 
system for tracking contract information.
    Even when systems are eventually linked, challenges may 
continue because data are not currently entered into SPOT in a 
standardized manner to permit unique contracts in order to be 
matched with information in FPDS.
    Preliminary insights based on our ongoing work indicate 
agencies may face similar challenges in tracking grants and 
cooperative agreements and personnel working under them. For 
example, USAID guidance for entering grantees into SPOT does 
not cover local-nationals. Moreover, agency-grants data reside 
in multiple databases that generally do not maintain 
information in a standardized manner, making future links to 
SPOT difficult.
    To address shortcomings in agency implementation of SPOT, 
last October, we recommended the agencies jointly develop and 
execute a plan to better ensure contractor data are 
consistently entered into SPOT. In response, the agencies did 
not agree a plan was needed, citing ongoing coordination 
efforts and anticipated system upgrades as sufficient.
    We believe that, without a plan with specific timeframes to 
address shortcomings, there are few assurances SPOT will 
fulfill its potential, leaving the agency without reliable 
information to address management and oversight challenges in 
Iraq and Afghanistan.
    This concludes my prepared statement. I would be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Hutton can be found in the 
Appendix on page 58.]
    Dr. Snyder. Thank you all for your testimony.
    We will put ourselves on the five-minute clock here and ask 
some questions.
    I am not sure where to begin, exactly. I think what I will 
do is begin with, Mr. Ambassador, your statement that a--your 
testimony is that a new memorandum of understanding between 
USAID, the State Department, and the DOD is being signed today. 
Is that correct? Is a new MOU----
    Ambassador Michel. Yes, sir.
    Dr. Snyder [continuing]. Between your three agencies--State 
Department, USAID, and Department of Defense--being signed 
today? Has it been signed?
    Ambassador Michel. Yes, it has gone forward to our 
administrator. And I am told that he is expected to sign it 
today. He has been in and out, but I think he will sign it 
today.
    Dr. Snyder. So, when you say, ``He is going to sign it,'' 
that is the USAID administrator. Has DOD and State already 
signed off on that?
    Go ahead.
    Mr. Motsek. Mr. Chairman, yes--February.
    Mr. Moser. Yes, and the State Department--we expect the--
Deputy Secretary Lew to sign it either this afternoon or 
tomorrow.
    Dr. Snyder. Do you agree with Ambassador Michel's 
description of what the MOU does? I mean, it changes the 
requirement that you are imposing on contractors, does it not, 
as you outlined in your testimony?
    Mr. Moser. No. The MOU is actually a revision of the 
previous MOU that we have had.
    Dr. Snyder. Yes.
    Mr. Moser. The agreement that we have tried to strike--the 
balance that we tried to strike in the NGO community, and how 
we approached the grantees--is actually an agreement among the 
three agencies.
    Wouldn't you agree with that, Gary?
    Mr. Motsek. Yes, sir.
    The challenge was, when we expanded the definitions last 
year, to include cooperative agreements and grantees--in 
general terms, we opened the bigger basket. And we hadn't 
complied with the earlier basket. So we had to work through 
that process.
    If you recall, by law, the only people that we actually 
have to have in there by name are those associated as private 
security contractors, or interpreters-slash-translators. Well, 
there were two sections of previous NDAAs that required those 
two.
    We, in DOD, have always pushed for ``by name'' across the 
board. The State Department has generally done that. But this 
recognition that aggregate numbers are sufficient to--to do the 
management that we are talking about--if, for example--I don't 
want to put words in Ambassador Michel's mouth--but if he has a 
large grantee--if he can simply put the aggregate number in 
there, and have it divided up by the broad categories of U.S., 
local-national, third-country nationals--we have that 
management tool that we use in the larger aggregate. And we can 
manage the population in that respect.
    Is that about right?
    Ambassador Michel. That is absolutely right. Now, we do 
think that this agreement that we have reached among ourselves 
about how we can move forward to give effect to the legislation 
within the framework of the MOU--and I think the amendments to 
the MOU really reflect the new legislation of the 2009 and 
2010--they are not changing anything basic about the 
relationships.
    Dr. Snyder. Well, let me get this right.
    So, Mr. Moser, in your written statement, you talk about 
using a blind-identity to meet SPOT compliance for grantees.
    Mr. Moser. Right.
    You know, I think that this deserves a little context. I 
know that the NGO community, or members of Congress and their 
staff have heard a lot from the NGO community in the last 
several months because of this question about grantees' inputs 
because of the changes in the 2010 National Defense 
Authorization Act. However, State had always thought that the 
grantees were to be in SPOT--that that was our interpretation 
of the original legislation in 2008.
    When we started applying the legislation in 2008 and 2009, 
we got concerns from our embassy in Baghdad that they were 
concerned about the identity of local-nationals being in the 
system in a country that, admittedly, has a high degree of 
sectarian conflict. Therefore, we came up, in consultation with 
our partners in DOD, with our blind-identity scheme in order to 
protect the identity of those individuals that we felt that 
were under threat, who were not private security contractors.
    So we came up with a--you know, essentially, it is like 
Iraqi-one, Iraqi-two, Iraqi-three--so that we actually input 
them as individual fields in SPOT. And then, in order to comply 
with the actual enumeration that we needed for these 
individuals--but not in a fashion that would endanger their 
identity.
    So that is just a long way of saying--is that this issue 
about the identification of individuals is not a new issue for 
us. And it is something that we have recognized for some time.
    Dr. Snyder. Well, okay.
    Now, help me understand this. According to this, what you 
are saying is that you all are in agreement with--you are going 
to use the SPOT system for those people who need letters of 
authorization to come onto a base----
    Mr. Moser. Correct.
    Dr. Snyder. And so the only people who will be in the SPOT 
system will be security folks----
    Mr. Moser. No, sir. No, sir.
    The people that need letters of authorization have to be 
named by name. But it is the other class of individuals who 
were not--who were in--generally in the grantee community, who 
did not receive any support services from the Department of 
Defense in the field, whose--the need for that identity 
information for the agencies was minimal. And, really, we don't 
see a real tangible need for that.
    Gary, wouldn't you agree with that?
    And those are the ones that we said that could really be 
subject to the blind-identity scheme.
    Dr. Snyder. So you are not using the blind-identity scheme 
anymore?
    Mr. Moser. Yes, we still--State is still using it now. We 
have not switched to an aggregate number; although, we are in 
the process of discussing that with our agency counterparts.
    Dr. Snyder. I hope my time has--oh, yes, it has run out--
because I have done nothing but confuse myself.
    Mr. Moser. Okay.
    Dr. Snyder. But, fortunately, I get to do this as many 
times as I want.
    I thought you said you were all on the same page now--all 
three agencies.
    Mr. Ambassador, do you all use blind-identity schemes?
    Ambassador Michel. We do not, for a couple of----
    Dr. Snyder. All right, then; I rest my case. You are not 
all doing this the same way.
    Ambassador Michel. There is not----
    Dr. Snyder. Do you agree with that, Mr. Moser--you are not 
all doing it the same way?
    Mr. Moser. I would say that, in the past, we have not been 
doing it the same way. But we think that, through the 
consultations that we have had in the last--within the last 
month--that we think, going forward, that we will actually have 
a consistent input----
    Dr. Snyder. All right. Well, do you all want to talk 
amongst yourself and decide if you do have or do not have a 
blind-identity scheme for SPOT?
    Ambassador Michel. Now, Mr. Chairman, I----
    Dr. Snyder. I mean, do you or do you not?
    Ambassador Michel. Mr. Chair, we do not have a consistent 
way of entering the data. We do not have what Mr. Hutton had 
described as being a ``uniform'' way of entering the data.
    Dr. Snyder. Well, my time is over----
    Ambassador Michel. And there are differences in the way we 
operate that we think provide a rational basis for some 
distinctions. We are not talking about exactly the same kinds 
of activities.
    There are two points I would make here. One is that we are 
all in agreement on meeting the requirement of the aggregate 
numbers, which is the legislative standard. And we believe that 
expanding the population of this database with those aggregate 
numbers, which we had not figured out how to do earlier, will 
provide us with useful information that will facilitate the 
interagency coordination that is the ultimate objective here. 
It is not to have--``How many names can you get into the 
database?'' but, ``Does that information help you to coordinate 
better?''
    And I would say that, for USAID, where our work is not on 
bases or in embassies, but in communities at a--you know, out 
into the countryside--the cost of trying to record names of 
these individuals would be substantial. And the value of it in 
terms of what it would add to the information that we hope we 
will be developing through the aggregate-number entries would 
be a serious question.
    We do believe that, in addition to this computer system--
that there are many things we need to do to assure that our 
interagency coordination is contributing to the effectiveness 
of our mission, and carrying out our national objectives in 
these environments in Iraq and in Afghanistan.
    There is a whole array of additional measures that are 
taken through, for example, interagency committees; joint-
coordination committees in Iraq and in Afghanistan. We have 
Ambassador Haslach in Iraq, who looks over the range of 
assistance matters. We have Ambassador Wayne in Afghanistan. We 
have Ambassador Holbrooke in Washington.
    We have USAID participation in activities like the 
committees that look at the Commanders' Emergency Response 
Program funds, and compares what is going on with those DOD 
funds, and what is going on with the USAID funding. We have 
USAID people serving on the PRTs [provincial reconstruction 
teams], who are engaging with Defense colleagues and State 
colleagues.
    So I think there is a whole array of things that we are 
doing. And the increased interagency dialogue that is part of 
what we have all agreed on here, I think, gives us an 
opportunity to look at the contribution that SPOT has, but also 
that these other mechanisms have for improving coordination and 
advancing our missions in these difficult countries.
    Dr. Snyder. Mr. Wittman.
    We will come back to this, because I am more confused now 
than when I started.
    Ambassador Michel. Okay.
    Dr. Snyder. I am more confused now than when I started. And 
we are not leaving here today until I am not confused.
    Ambassador Michel. Okay.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to build on Chairman Snyder's question. It 
seems that there has been an elongated period of time to have 
all the agencies come together with this MOU. And my question 
is--as we have heard pretty emphatically from the NGOs about 
the onerous reporting requirements for SPOT that they have to 
go through for local-national employees--let me ask this: How 
did you, or did you, reach out to the NGOs in developing the 
MOU to understand what their concerns are so that we are 
actually trying to make this system more workable and actually 
try to get information that doesn't require extraordinary 
measures by NGOs there--sometimes, maybe, creating more 
problems than what we are trying to solve.
    So, did you all, collectively, reach out to the NGOs and 
get their ideas on what needs to be in this MOU?
    Mr. Motsek. The baseline for the MOU--the changes to the 
MOU were statutory. They were not based on anything else.
    If I could step back--because I know why we have confused 
you, I think.
    When we initially established the program back in 2006-
2007, the system was designed by a ``by name'' input. That was 
the baseline for what we did. We couldn't do anything unless 
you put names in there. And that is how we delineated everyone.
    When we had the legislation last year that--and we 
initiated it because we wanted the larger picture, to be blunt 
about it--and we expanded that to include cooperative 
agreements and grantees, which really opened up the aperture 
that USAID has to participate in, it--it started causing 
concerns by populating by name, inside the database.
    The law requires us to do much more than that. Really, what 
we are trying to do is link the population of contractors--and, 
again, those three broad bins--because we treat them 
differently--against the contractor, grant, or cooperative 
agreement--a description of the item, the length of time that 
contract is in effect. And, then, there are other things that 
you have required us to do. I have to be able to account for 
deaths against a particular contract, cooperative agreement, or 
grant.
    So there is a pull-down menu. Now, it is far easier if all 
the names are in there, because, on that person's name, we can 
pull it down and say, ``Deceased,'' and we can aggregate the 
numbers. We didn't have that option, quite frankly. We went 
back and made changes to the system to accommodate a count by a 
contract number--for lack of a better term--``Give us number of 
people associated with this contract.'' ``We have 200 local-
nationals; we have 43 third-country nationals; and two 
Americans,'' for example. And we can aggregate them, then, that 
way, from now on.
    So we still have the management tool to work it. But we 
don't necessarily have it in all three of our agencies, by 
name, every time, with those two exceptions that are required 
by law.
    Mr. Moser. And, Congressman Wittman, if I can just take 
your question--in my testimony, I referenced the grant-policy 
directive that we issued in 2009.
    At that time, as I said earlier, we had already made the 
policy decision that we were going to put grantees in. Even 
though the law at that time did not specifically require it, we 
felt that that was Congress' intent. So it was a policy 
decision within State in order to do that.
    Our procurement executive regularly meets with all the 
program offices that have grantees. And we had a great 
discussion at that time about how the SPOT data entry would 
proceed without the--with notification with them. And so there 
was a discussion--we presumed that there was an active 
discussion between the relevant program offices and their 
grantee community. That is the reason we felt like we have 
always had it. I have been pretty assured by that in my 
discussions with those program offices.
    However, at that time, we did have a lengthy discussion 
about what to do about public international organizations. And 
those, we purposefully exempted from SPOT, even though they 
received U.S. Government funds from the State Department--that 
we did not--that they were under the auspices of the U.N. 
[United Nations] or other international organizations. And we 
decided to not enter them.
    So we had a rather extensive dialogue about what to do 
about grantees at that time.
    Ambassador Michel. I might just add, Mr. Wittman, that when 
we entered into this--and I was not here in 2008, so I can't 
speak to it--but my understanding is that when this original 
MOU was entered into in 2008--that this was all new experience 
for USAID, and there was a learning curve.
    And the implications of this--and it is not only for the 
NGOs. It is also for the contractors that are operating in 
similar environments out in the countryside--that this was a 
learning experience. And it is true that the NGOs have been the 
most outspoken in their concerns. And we have had extensive 
discussions with them in the course of developing this 
interagency agreement that will allow us to proceed with the 
entry of the aggregate data by contract.
    And so there has been, certainly, extensive discussion with 
the NGO community.
    Mr. Motsek. Sir, if I might add--because, what do you do 
with this information? That is really the question.
    From a practical standpoint, just the brief descriptions of 
what the grant, cooperative agreement, or contract it is 
associated with, is de-conflicting issues right on the ground. 
We are getting away from three agencies independently trying to 
drill the same well in the same location, because we are 
sharing, by geographical location, those contracts, grants, or 
whatever, in the database. And we were able to size--just by 
looking at the dollar value and looking at the numbers of 
people associated with that contract, we can size what is going 
on.
    So, for example, I have a member of my staff that has been 
in Afghanistan for over a year now. And this is one of her 
areas of concern. And she is using the database to do this. And 
as it becomes more populated by USAID--and, in fact, it is 
being offered to other non-U.S. agencies on a voluntary basis, 
to put data in as well, so that we can look across a broad 
stripe of what is going on there.
    So, from a practical standpoint, we don't need the names of 
the people associated with what is going on. And that is kind 
of a revolutionary change of thought in our process, here--to 
be blunt about it. But we do know what is being performed in a 
location. And we can start making those economic trades that we 
need to make so we are not stepping over each other.
    Mr. Wittman. I yield back, Mr. Chairman. Thank you.
    Mrs. Davis. Thank you, Mr. Chairman. And I am sure I am as 
confused as anyone else.
    But I wanted to turn to Mr. Hutton, if I might, for a 
moment, because, in your concluding remarks, you mentioned 
that--and I know that you do this work--does what we are 
talking about here satisfy your criteria that there is a plan, 
with specific timeframes for executing it?
    Mr. Hutton. That is a great question.
    And I sat here listening to some of the discussions about 
where SPOT is today. And what I would say, first of all, 
though, is when the requirement came in that the three agencies 
were to get together and sign an MOU and figure out how they 
are going to track specific pieces of data, I look at it at two 
levels.
    First, at that point in time, an agency stepping back and 
thinking about, ``Okay. I want to better manage my contractors 
and provide better oversight. What do I need to do that?''--and 
think through what the criteria are--I mean, we are talking 
about weapons systems and everything else--the importance of 
defining your requirements up front.
    Now, the agencies may very well have different requirements 
as to what they want to put into that database. And, from my 
standpoint, you know, if people are meeting the minimum that 
the law requires, okay. They satisfied that. But the bigger 
test is, ``Are you satisfying your own information needs for 
how you want to manage your contractors and, now, grants?''
    So, now, we are two years down the road. And I think where 
we find ourselves, quite frankly, is, maybe, a little bit more 
reacting to what we are seeing as it relates to how we are 
going to deal with grantees versus maybe being proactive up 
front.
    I think, as I said, at the start--thinking about how they 
want to use the information. Mr. Motsek mentions that they 
brought--they went with SPOT, I think, several months--maybe up 
to a year--before they decided to use that for their reasons to 
track contractors. And I think there are certain valid reasons 
why one would want to have detailed information on contractors 
in a system; particularly if they are supporting the deployed 
troops, they are getting services, there are security 
concerns--very real issues.
    And, yes, I thought the LOA [letter of authorization] was a 
good trigger, perhaps, for Iraq. The question, then, became, 
``Well, every country is not the same. Does Afghanistan require 
the same extent of an LOA as you do in Iraq?''
    So I think you have to kind of look at it almost on a case-
by-case. But you have to stand back and really ask yourself, 
``What do I really need to manage?'' Grantees--maybe aggregate 
numbers at one level are fine. Maybe you don't need to name the 
names. But I think it would depend on what you are asking these 
groups to do for you, and think about the sensitivities of 
that, and make real proactive judgments about it.
    Mrs. Davis. Are you seeing instances where information is 
collected that really isn't needed, but, perhaps, there is a 
sense on the part of one agency that they should be collecting 
it because somebody else is collecting it? I mean, how do you 
get at that?
    Mr. Hutton. Well, there is a lot of information in SPOT 
right now. And, again, I think it takes it back to the 
requirements. DOD may have very specific things they want to 
have in SPOT. That may be fine for certain types of 
contractors, and for what they are trying to get to in terms of 
managing their contractors.
    The question to me is, ``Well, there may be a lot of data 
elements in SPOT. But, maybe for certain types of activities 
you don't have to have all that information.''
    Mrs. Davis. Yes.
    Mr. Hutton. But it is hard for me to put myself in the 
place of an administration--an agency--as to how they manage 
their contractors--as to what they think they need to better 
manage. I think that is for them to figure out, then work 
together. And that is where we had our recommendation. I think 
coordination is helpful. This hearing is helpful.
    I think, last year, when we had the hearing, it helped 
nudge things along. This hearing, I think, is helping to nudge 
things along. But, quite frankly, our recommendation was aimed 
at--yes, coordination is good. And we do believe--we see that 
there is discussion going on. But we felt, with a very specific 
plan with milestones--milestones will help you get to where you 
need to be, hopefully quicker. And, you know, hearings like 
this kind of help move it along.
    Mrs. Davis. Anybody else want to comment on his comments?
    Mr. Motsek. Ma'am, he is absolutely correct.
    Our agencies have different requirements. In simplistic 
terms, we need to know because the bulk of our folks do, in 
fact, go on or off our installations. So there is a binding 
requirement. That is clear. It is evident. But our military 
leaders in the field need aggregate numbers of people that are 
associated with the U.S. if, for no other reason, than to 
enforce protection in that broad area that they have a general 
responsibility for.
    Because, you know, no matter what happens in the--when they 
had the explosion of the U.N. compound in Kabul--the person you 
are going to turn to, to sort it out, to provide the initial 
protection, to do the initial extraction, are going to be the 
U.S. military because they are the ones with the most toys in 
the area, and the most capability.
    And so that commander on the ground--while I agree--because 
we do have different requirements, and we have--this has been a 
learning process for us--does not necessarily need to know the 
names, they do need to know that, in Helmand Province, ``There 
are X-thousand USAID personnel that may require assistance when 
these particular trigger points occur.''
    So it is, in fact, in my mind, critical that we continue 
this collective database to get the numbers in there so that we 
can perform those tasks.
    Mrs. Davis. Okay. Thank you.
    Oh, go on----
    Ambassador Michel. May I add a point to that? And I agree 
with everything everyone has said here. But if USAID was going 
to create a database for tracking contractor personnel and 
grantee personnel--we would not, because of the nature of the 
work we do, which is very dispersed out into the communities, 
out into the fields--or agriculture projects and so on--we 
would not create something that has the capabilities that the 
Defense Department decided it wanted to have when it created 
SPOT for a different kind of contractor workforce.
    Now, I think the Congress, in establishing it for the 
aggregate data to be required under the law--there should be a 
common database--that was a great thing, because we are all now 
going to be applying SPOT as the way to get the information 
into the system in the same way. And when it says, ``This 
contract has a value of X, or it has a purpose of Y,'' no 
matter which of the agencies puts that in, they are using the 
same definitions and the same standards.
    I think that has a value that can be useful to us in 
coordinating, and can be useful to Congress in overseeing what 
we are doing. But for us to try to duplicate all of the 
information that the Defense Department wants to have for its 
contractors, when it is not value-added sufficient to incur the 
costs--argues, in my mind, against identical implementation in 
the--in the degree of detail that we each put in.
    I think each of us is putting in a basic set of information 
that will be useful.
    Mrs. Davis. Thank you.
    Mr. Moser. And Congresswoman Davis, if I could give you a 
comment or a perspective from the Department of State--I am a 
big believer in standardization--that you have to have some 
standardized system. And this is the reason why--that we agreed 
upon SPOT. Was it the ideal system if we began from scratch? It 
is hard to say.
    But one thing I have learned in system development that I 
carry on in my other logistics activity--you choose the tool 
that will meet most of your needs, or can share good use as a 
common platform. So I think that we arrived--when Gary and I 
first met, it was actually in our initial discussion about 
SPOT--I only wish Ambassador Michel had been able to join us at 
that time, but he was otherwise employed--but that you go on 
from there.
    Now, what has our recent experience been? And I think this 
is one of the SPOT success stories. The management counselor at 
our embassy in Kabul asked me, ``Will, how can I control my 
contractors--the State Department contractors--that I have some 
responsibility for supporting?'' Well, SPOT ended up to be the 
ideal tool for that. And we have set up the hardware for them 
to start to use that. And we had a similar situation with our 
diplomatic security program, where they are using the features 
of SPOT in order to track their contract personnel.
    And the reason I mentioned this is that you decide on the--
you know, to get the jointness, we have to have that--but, 
then, each agency can really adapt it to its own business 
requirements, and get some of the good benefits that we can get 
over the--out of this over time.
    Mrs. Davis. Thank you.
    Dr. Snyder. We will go another round here.
    Mr. Ambassador, your--I am going to go with your summary of 
what the MOU that you say is being signed today, or is about to 
be signed today--you say, ``USAID will ensure that all required 
personal information will be provided with respect to personnel 
of USAID, implementing partners, both contractors and grantees 
as follows.'' And the first section is, ``Personnel who require 
letters of authorization due to logistical support, military 
interface or other reasons.''
    Now, what you are saying there is if somebody needs a 
letter of authorization to go onto a base--this form or 
something like it, with all the personal information, has to be 
filled out. And, Mr. Motsek, is that--do you agree with that--
that if they are coming on to your bases or----
    Mr. Motsek. Absolutely. He will have several tiers of data, 
depending upon your personal----
    Dr. Snyder. To get that letters of authorization, I don't 
think we have any alternative but to enter exactly the 
information that is required----
    Ambassador Michel. That is not----
    Dr. Snyder [continuing]. With a real name. You can't say, 
``Iraqi number one?''
    Ambassador Michel. No, no, no, no.
    Dr. Snyder. Okay.
    And, then, the second one says, ``Personnel other than 
locally engaged nationals who perform security functions in 
Iraq or Afghanistan.''
    Ambassador Michel. I am sorry. We moved that out of the 
testimony. And I am sorry I didn't get that corrected version 
to you, because this raises another issue, which confuses me. 
And I don't want to get into it much in depth.
    Dr. Snyder. Oh.
    Ambassador Michel. But there is another process----
    Dr. Snyder. You----
    Ambassador Michel [continuing]. By which a regulation under 
a different section of the law will make provision for 
registering the security personnel.
    So we are not addressing that in this MOU--or, at least, 
not in our discussion of how we will--it is covered. Yes.
    Dr. Snyder. So the MOU, now, is going to discuss those who 
would require a letters of authorization. We are all in 
agreement--they will need to fill out the form completely.
    And I am sorry I didn't--I guess you had just given us that 
revised version an hour before the committee hearing.
    Ambassador Michel. I am sorry, sir. We had some confusion 
in, I think, our understanding of how these different pieces of 
the law worked together.
    Dr. Snyder. All right.
    Ambassador Michel. And so we submitted the corrected 
testimony. And I will admit that was very late.
    Dr. Snyder. All right.
    And, then, the second part of it is: Is number two still 
the same--``USAID will assure that timely and complete 
information will be provided, indicating aggregate numbers of 
other personnel of USAID implementing partners, both 
contractors and grantees in Iraq and Afghanistan, and aggregate 
numbers of such personnel who are killed or wounded''?
    Ambassador Michel. Yes, sir.
    Dr. Snyder. So those are the aggregate numbers?
    Ambassador Michel. Yes, sir.
    Dr. Snyder. Those people, according to your memorandum of 
understanding--they will not need to be entered in SPOT on this 
form.
    Ambassador Michel. Yes.
    The memorandum of understanding does not go into specific 
detail on this. This is what we have worked out among ourselves 
to accommodate the different ways of doing business that we 
have--the different missions that we have, and the different 
partners that we have, and, at the same time, meeting the 
requirements of the law, and providing this additional 
information that Mr. Motsek described, that allow us to 
coordinate among the contracts of the three different agencies.
    Dr. Snyder. So I want to be sure here, all right?
    Are you all in agreement that, with regard to personnel 
other than those requiring LOAs, all you need is aggregate 
information? They do not need to be submitted on the SPOT form? 
Is that accurate or not?
    Mr. Motsek. It is accurate for him. But we require ``by 
name.''
    We, DOD, require--what has happened, sir, is we have now 
established a new baseline of minimal requirements which did 
not exist before.
    Dr. Snyder. Mr. Motsek, let me interrupt you. When you say 
it is ``accurate for him,'' but not for you, do you mean it is 
accurate for USAID personnel, but not for DOD personnel?
    Mr. Motsek. Correct; correct.
    For our particular needs, we still intend to put everyone 
in there by name, by association, primarily because the bulk--
not everybody, but the bulk of our contract personnel do have a 
relationship to and from an installation. Either they need a 
full LOA, as you have seen there, or they are providing some 
degree of support via satellite installation--via some sort of 
transportation.
    We have to do some sort of vetting on them so that we have 
some degree of satisfaction that----
    Dr. Snyder. Now, that was--and that was the original 
purpose of SPOT, wasn't it--before we had the statutory stuff?
    Mr. Motsek. Yes.
    Dr. Snyder. I mean, Synchronized Pre-deployment and 
Operational Tracker----
    Mr. Motsek. Right.
    Dr. Snyder. You are DOD. You want to be able to track some 
people.
    Mr. Motsek. Right, and----
    Dr. Snyder. That is different than using it as a tool to 
give the Congress aggregate information.
    Okay, so----
    Mr. Motsek. That is correct. Sir, it was initially the 
point to take care of U.S. contractors leaving the U.S., going 
over there. And we have since expanded it to come up----
    Dr. Snyder. Right.
    Mr. Motsek [continuing]. With a tool to count all U.S. 
contractors in the AOR, to--in simplistic terms. All of them--
and in those broad bins--to be able to account for deaths, 
killed in action--to be able to account for all those contracts 
in a single database that says, ``Okay, we can see what 
everyone is doing in one place, what the length of that 
contract is so we don't inadvertently provide support to a 
contractor who is been expired.''
    Dr. Snyder. But these are decisions that your--would have 
made regardless of the statute, but said, ``We wanted aggregate 
information on people''?
    Mr. Motsek. Without the statute, we would have still tried 
to have----
    Dr. Snyder. Right.
    Mr. Motsek [continuing]. Still tried to have aggregate----
    Dr. Snyder. Right.
    Mr. Motsek [continuing]. Information.
    Dr. Snyder. Right.
    Mr. Motsek. But the statute did require such things as 
recording deaths in the database.
    Dr. Snyder. Right.
    Mr. Motsek. We had always heretofore relied on the 
Department of Labor. Well, we changed the process so we can 
record the deaths now in this common database. It didn't have 
to be SPOT, but the--the committee's knowledge and Congress' 
intellectual honesty about saying, ``Don't reinvent the wheel 
three, four, five different times,'' was probably the best 
thing you could have done, because instead of having to sit 
here and argue about nuances, we would be arguing about the 
whole totality of what we wanted to do.
    And, so, we actually are talking amongst each other. I can 
read his data, if necessary. I can sequester his data, if 
necessary. We have got the system intact. We just have to 
continue the population of it.
    Dr. Snyder. So, Mr. Moser--does the State Department now 
work that this memorandum of understanding for State 
Department--do you just do aggregate personnel--aggregate 
numbers for folks other than those who require letters of 
authorization?
    Mr. Moser. As I have said--is that our criterion has really 
been those who feel that they are endangered have reason--you 
know, have a reasonable degree of fear--those local-nationals.
    We have tended to put in more names rather than less names, 
and that has been our criterion in the past, given our 
agreement----
    Dr. Snyder. All right, let me interrupt you here.
    So we have already passed number one. If we require a 
letter of authorization, you know, obviously, you have to fill 
out the form.
    Mr. Moser. It will be in there.
    Dr. Snyder. And, then, what you said--you just said, 
``Those who feel fear''----
    Mr. Moser. Yes, that has been----
    Dr. Snyder. Now you have employees of contractors, whether 
an American or from another nationality, or a local----
    Mr. Moser. No, sir. We never exempt Americans or third-
country nationals. We are talking about host-country nationals 
only.
    Dr. Snyder. So if an American employee of the----
    Mr. Moser. Every American employee is going to be in SPOT 
by name, and identified. And we have always done that.
    Dr. Snyder. Even if they don't require a letter of 
authorization?
    Mr. Moser. That is correct.
    We have always done that.
    Dr. Snyder. Well, I mean, that may be a perfectly 
reasonable thing----
    Mr. Moser. Because----
    Dr. Snyder. It is not what this MOU that I--all said we 
agree on.
    Mr. Moser. No, but, you know, it goes back to--we felt that 
that was best for our own business process in order to control 
our contractor and grantee community.
    Dr. Snyder. Right. I understand.
    All right, so with regard to third--to Iraq or Afghan 
nationals----
    Mr. Moser. Yes?
    Dr. Snyder [continuing]. The only time--are you saying now 
that for the--for State Department purposes, the only time they 
end up in SPOT is if they require a letters of authorization 
that--for whatever reason--to come onto the facility? Or if, in 
their subjective opinion, they feel fear and request to be 
included in SPOT--that is the only time a local Iraqi or Afghan 
would be included?
    Mr. Moser. Well, no, because we will put them in if they're 
conducting private security functions.
    Dr. Snyder. Okay.
    Mr. Moser. Because that is actually required by law.
    Dr. Snyder. Right.
    Mr. Moser. And we will put them in for that.
    Now, as I have said, we have been doing a blind-identity 
scheme. But with the systems modifications that USAID has asked 
for, and that Mr. Motsek has agreed to do--then we will 
probably switch to bulk numbers when we have a group of 
employees that this is subject to, because it will actually 
reduce the amount of data entry that needs to be done, and the 
cost. That is right.
    Dr. Snyder. But the numbers----
    Mr. Moser. But the numbers would be the same. It is just 
that what they are talking about in aggregate data, we actually 
achieve by doing individual entries under a blind-identity 
scheme.
    Dr. Snyder. Mr. Wittman, I am sorry. I have taken----
    Mr. Moser. I hope that was clear.
    Mr. Wittman. I want to go back to Mr. Hutton's comment in 
his presentation. And when he talked about developing and 
executing a plan--and there is some resistance among the 
various agencies there--he states, ``By joining, developing, 
and executing a plan with specific timeframes, the agencies can 
identify the concrete steps needed to assess their progress, 
ensuring that SPOT collects the data necessary to fulfill 
statutory requirements.
    ``By working with potential users of SPOT data to better 
understand their information needs, each agency can help ensure 
the information entered into the system is sufficiently, but 
not overly, detailed and will assist in managing and overseeing 
contracts, grants, and cooperative agreements in Iraq and 
Afghanistan.''
    It sounds like, to me--that we still haven't gotten to the 
point to really understand what is needed and what is not. How 
do we make this system workable for everybody?
    Do you all believe that the recommendation here to develop 
a plan at this point, with where you are with the MOU, is 
necessary; and if so, why; and if not, why not?
    Ambassador Michel. Let me take a start at it.
    I think what we have here is that we have an MOU that sets 
the ground--the floor of this. And we have, among ourselves, at 
this point, agreed that some will put more and some will put 
less, but all meeting the legal requirement--depending on not 
arbitrary considerations, but rather our perception of what our 
respective missions are, and the information that will 
contribute to shared information that will facilitate 
coordination among us.
    So it is not that the MOU is interpreted differently by us, 
but rather, the MOU, which creates the base, is implemented in 
a variable way among the three agencies to reflect the 
different way that we do business, but with a consistency of 
the basic information that we are all providing and--consistent 
definitions.
    Now, we are just beginning, now, to talk among ourselves, 
as we begin to implement this understanding about--we can 
coordinate. And it seems to me, Mr. Wittman, that that 
discussion should include consideration of a concrete plan. But 
I don't know that that will be the right outcome or not until 
these discussions take place.
    Mr. Wittman. Okay.
    Ambassador Michel. I would think that the discussions among 
the three agencies going forward, on implementation, should 
include consideration of some milestones. I don't know, sitting 
here, whether that is--where that should come out. They may, 
after discussing it, decide, ``Well, no, that is not 
necessary,'' or it is not appropriate. It seems to me it should 
be considered.
    Mr. Wittman. Sure.
    Mr. Hutton, let me ask, based on what you know of the MOU--
do you believe that that negates the need for a specific 
detailed plan with timeframes, as you suggest?
    Ambassador Michel. I think that a detailed plan with 
timeframes is something that should be discussed and considered 
among the three agencies to see what that might entail and 
whether it is a practical and useful thing to do. And I don't 
think I can say that a priori as to whether those discussions 
will reach that conclusion or not.
    Mr. Wittman. Okay.
    Mr. Hutton, your thoughts on that?
    Mr. Hutton. Thank you, Mr. Wittman.
    Mr. Wittman. Yes.
    Mr. Hutton. I think that is a great question, because the 
way I look at it, sir, is that you have a congressional 
mandate--asked the three agencies to get together and agree on 
an MOU.
    What we found, and what you can see, is the MOU is high-
level. You have heard a lot of discussion here about what the 
MOU contains. And just, maybe, to make sure there is some 
clarity on--what the original mandate said that the agencies 
needed to do was to agree on databases--not necessarily one, 
but they agreed to the SPOT. I won't, you know, take issue with 
that.
    But there were specific things that it was to include. And 
that was the brief description of the contract, its total 
value, whether it was awarded competitively. On the personnel 
side--total number employed, total number performing security 
functions, and total number killed or wounded.
    Now, the way I look at it--as I stated earlier, you have 
the MOU here. You have the mandate and the MOU. My point is all 
this is about better managing your contracts and having better 
oversight. That may be over here. So how do you get from here, 
at the MOU point, to an ultimate outcome of better management 
of your contractors?
    And so that is where we submit that each agency may have 
different requirements. Take it in-house. Figure out what you 
need to better manage your contractors. Put it down on a paper. 
Give yourself some milestones. Because I will tell you what--
you go to Mr. Motsek, who has the system over there--there may 
be some things that people are wanting to do that we want to 
make sure we are not going to conflict with anybody else, we 
are not asking for something that, you know, might be difficult 
to do. I don't know--or maybe you have to have some kind of 
phased planning.
    But, ultimately, they all have to bring their requirements 
together. We just submit that having clarity of what that is, 
because I do believe there may be differences by agency. There 
may be differences by service that the contractors or grantees 
are providing. And, as you have heard today, there are other 
issues that some--there are sensitivities involved in this 
information.
    So put that down. Figure out what you need. Then, get 
together and de-conflict. Figure out where there are 
similarities and differences, and then move ahead to what 
ultimately is what you all are asking for.
    Mr. Wittman. Thank you, Mr. Chairman.
    Thank you, Mr. Hutton. I think that is a great point. And I 
am concerned about, operationally, where do we go from here? It 
is great to have the MOU, but if you still don't have the type 
of coordination there with resources, among the three different 
agencies, then the MOU isn't necessarily going to get you where 
you need to be.
    So, thank you, Mr. Chairman.
    Dr. Snyder. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you.
    I wanted to just be sure--Mr. Hutton, you looked like you 
had something to say before. And I wanted to be sure you had a 
chance to respond. Maybe you have just answered it.
    Mr. Hutton. Well, thank you for the offer. I think I have 
tried to work in several thoughts.
    Mrs. Davis. Okay. Thank you.
    One of the things that just--I would wonder about--and, 
clearly, there is a reason for standardization and a kind of 
quality control, if you will--and everyone is not created equal 
here, in terms of skill level--but to what extent is that a 
problem--are the folks who are engaged in these operations--is 
everybody pretty much on the same page in terms of skill level, 
or is there some disparity that really should be addressed 
across the agencies and the kind of training--and this may be 
totally irrelevant to this discussion.
    But I remember another one when we were looking at 
contracting, and we had not brought the number of auditors on 
board with the kind of skill levels that were required to do 
the work. I mean, you know, we were--they were swamped. And 
they really weren't as skilled as they could have or should 
have been.
    To what extent is that an issue here?
    Mr. Moser. Congresswoman Davis, I will--I volunteered to 
answer this question because this is one hard spot that I feel 
that our agency has actually done a pretty good job with.
    The Department of Defense has developed some very good 
training videos. They are Internet-based videos. And we have 
embraced those. And we feel that those do a pretty good job of 
training our contracting officers and the ones that have to 
modify data and--and input.
    But one of the things that--I should put this in context, 
where people understand it--is that it is the contractors, or 
the vendors, that have to do the initial data entry into SPOT. 
And they are the ones that--and we feel that--and it is the job 
of our contracting officers or grants officials that they 
monitor their data input.
    Now, one of the things I did not bring in--didn't grab it 
off my desk before I came--is we have a training manual that we 
distributed widely throughout the agency that my staff 
developed. And I am actually very proud of the work that they 
did in developing this so that they--we could have a shared 
manual that really explained how to do SPOT. And this is 
something that we have shared with our colleagues at USAID. And 
I think they have found it helpful.
    So I would say that all three agencies working together 
have really found a way to try--you are not going to get 
perfection and, particularly, not across a wide range of 
individuals. But you do your best in trying to make a sincere--
a sincere effort to get the common training materials that 
everyone uses, and then do quality control to check the 
results.
    Mrs. Davis. Yes, Mr. Motsek?
    Mr. Motsek. Thank you, ma'am.
    The--the whole concept of training and getting organized--I 
mean, it is the one good news in the MOU, as we are 
piecemealing it--there is a very significant change in us. 
First of all, it is very difficult to get three agencies to 
agree on anything when they have their own, you know--their own 
cultures and the like. And, to be blunt about it, I think the 
signing of this MOU is kind of woefully behind. It is just 
tough stuff to get this to happen.
    Two major changes occurred in this MOU. One is I have given 
up some of my--what I perceived to be my authority and 
responsibility, in that we have now, in the MOU, required us to 
effectively establish a board of directors amongst the three of 
us. And we must be appointed by our secretaries and meet 
periodically to resolve those issues. That was not there 
before. Up to that point, it was just dumped in my lap and I--
you know, we did the best we could, and we had informal 
discussions.
    It is now formalized. We have a body that is going to work 
these issues. We have a process that says when we can't resolve 
them--where it has to go. And the second thing that we did--I 
think which was a very practical standpoint--is the initial MOU 
was signed at the deputy-secretary level--a very high level; 
very difficult to make any changes; very difficult to make any 
nuances about it.
    We have pushed that down to--basically, to the 
undersecretary level. So we have a more practical level of 
operation than we had before.
    We shot, in my personal opinion, a little too high by going 
to the deputy-secretary level, because nothing changes up there 
easily. This has given us a bit more flexibility in management 
and what we are doing.
    The other piece is that all of our training information is 
also co-located on the SPOT Web site. So even if you are a 
contractor that has to go in cold, your training is there, to 
go through the process.
    Because we have this board of directors now that has been 
established, what I see is our implementation plan is not 
another plan. It is our business processes and our business 
rules that we establish, which we will do collectively now. I 
was essentially doing those unilaterally up to this point.
    We are no longer doing it unilaterally. We are doing it 
collectively. And a year from now, when you have another 
hearing, you are going to ask us how well we have implemented 
that. But I think we have, frankly, sufficiently good 
oversight, potentially. We have got a board of directors. We 
have got our business rules. I say we execute.
    Mrs. Davis. What is the worst thing that can happen in this 
transition period, and as you move forward and, hopefully, 
before the next hearing that could happen? I mean, what is the 
kind of glitch that, you know, would keep you up at night?
    Mr. Motsek. The worst thing is we are--is practical. It is 
monetary.
    Up to this point, SPOT has been funded by supplemental--
cash in hand, every year. We are in the process, as the 
executive agent, to institutionalize it as a system of record. 
We presume we will be successful. Once we are successful, we 
have a common baseline of funding, and we have reasonableness 
in the program. If that was to fail, I will be knocking on your 
door again to push me out another year.
    I don't see that as a problem, in the sense that we are 
working to institutionalize it. But that would be the deal-
breaker--if funding was cut off suddenly--to continue the 
process.
    Ambassador Michel. Mrs. Davis, I might interject another 
point, which is a slightly different one.
    And that is that USAID, as you may know, went through a 
period of sharp decline in its operational funding, and in its 
staffing, to where we had fewer than 1,000 Foreign Service 
officers. And we are in a process of rebuilding.
    SPOT is a tool. And it is an important one. But we really 
have to have the capacity within the agency, through a general 
training program and through restoring the levels of personnel, 
which we are doing--rebuilding the Foreign Service--so that we 
will be able to engage not only in the use of SPOT, but in all 
the other ways of interagency coordination----
    Mrs. Davis. On a scale of 1 to 10, where are you now?
    Ambassador Michel. We are about a three, I believe, now, on 
the rebuilding. We have brought in, I think, somewhere in 
excess of 300 new Foreign Service officers under a program that 
will double the USAID Foreign Service over 3 years.
    Mrs. Davis. Does that say we were kind of at a half?
    Ambassador Michel. We were not in good shape.
    Mrs. Davis. ``Not in good shape''? Okay.
    Any other comment, Mr. Hutton?
    Mr. Hutton. One thing I might do to give you a little 
context from my point of view as to where SPOT is today--when 
you think about the fact that we have another report due 
October 1st of this year--this will be the third report--the 
scope of our work this time will be covering all of fiscal year 
2009, and the first half of fiscal year 2010. So, basically, 
this month is when we are going to do our cutoff for data.
    We are pretty much--as we have done in the prior years--
going through and largely doing manual pulls with the agencies. 
For example, for DOD, you know, we are still going to plan on 
the census. One thing that we didn't get into that I think Mr. 
Motsek might have had in his statement is talking about moving 
from reconciling SPOT to census. And I think they call it SPOT 
Plus. And that is another step towards looking to make sure 
that there is more information in SPOT now than there might 
have been a year ago. And I think, when you look back a year 
ago to today, there are more names in there.
    Just to use another example--we won't be pulling contract 
information directly from FPDS. Now, last year, there was a 
capability brought in to the SPOT system that is going to allow 
marrying up FPDS to say, for example, ``Pull in contract 
information.'' But as our report in last October mentioned, 
when we talked about standardization, I wasn't talking about 
standardization of what level of detail for each type of 
contractors you need, necessarily. It was more of, ``How do you 
standardize the data input so that when people are out there 
putting in contract information, they are doing it in a format 
that is going to be readily matched to how you can pull it from 
FPDS.''
    So those are just a couple illustrations. I don't mean to 
just use DOD. But I recognize there is time. But I think DOD is 
probably a little further along in some sense with their 
census. But I think State is doing a census, as well as USAID. 
So that gives you a snapshot of--if you were to ask, ``Where is 
SPOT today? Are we relying on SPOT to fulfill our mandate 
requirement?'' I would say we are still pretty much doing the 
approach that we have used in the past.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Good news for you, gentlemen. We have more 
votes.
    Mr. Motsek--I believe we will be able to finish up, I 
think, here. Yes.
    Mr. Motsek, I am going to try to describe where I think you 
are at with all this, which is essentially--you have a system. 
SPOT is your system. It is your requirement--this reporting to 
Congress--because it was--through the Department of Defense--
because you all own the war zones--that any contractors 
employee does get entered into the system, whether somebody 
requires a letter of authorization to go onto a base; whether 
they are a U.S. citizen or third-country national; or whether 
they are an Iraqi or Afghan national. If they are an employee 
of a contractor or a grantee, you require them to be entered 
into the SPOT database. Is that accurate?
    Mr. Motsek. That is exactly our intent. Now, our success 
rate----
    Dr. Snyder. I wanted to be sure----
    Mr. Motsek. That is an issue, but----
    Dr. Snyder. Now, do for me, with that same wonderful level 
of clarity--describe for me policy and practice of the State 
Department and USAID, on those groups.
    Mr. Motsek. From my perception? From my----
    Dr. Snyder. Well, yes. You own the system.
    Mr. Motsek. Well, up to this point, by and large, the State 
Department has mirrored our policy, up to this point in time, 
with one exception--this was before the new MOU--in that they 
had very discrete numbers of people that, for lack of a better 
term, had a dummy name in the database--I think is the best way 
of putting it.
    But from a numbers standpoint--from assigning numbers to a 
contract, and whether they were a local-national or a--well, in 
fact, they were only local-nationals that we are talking 
about--they were there. So in the past year, their numbers have 
gone up demonstrably. So----
    Dr. Snyder. No. I want to talk about their policy. What is 
their policy, going forward from today?
    Mr. Motsek. From this moment forward, all the agencies have 
the same opportunity that, with the exception of those mandated 
by law, we can put aggregate numbers into the database to 
manage the numbers of contractors against those contract 
vehicles that we are talking about. We need not put the data in 
by name if it is not required by our agency to do so, with the 
two exemptions by law.
    Dr. Snyder. So, Mr. Moser, if somebody needs a letter of 
authorization, they go into your system by name----
    Mr. Moser. Absolutely.
    Dr. Snyder. If they are a U.S. citizen or a third-country 
national, they go into your system by name.
    Mr. Moser. That is correct.
    Dr. Snyder. If they are an Iraqi or Afghan national who are 
not involved in any kind of security work, they do not go into 
your system by name, or any personal information. Is that 
accurate?
    Mr. Moser. Not entirely, because, actually----
    Dr. Snyder. Unless they want to be.
    Mr. Moser. Unless they want to be, yes.
    Dr. Snyder. So it is voluntary on the part of the Iraqi or 
Afghan national----
    Mr. Moser. Actually, not of the individual--of the 
company----
    Dr. Snyder. If the contractor required them by hiring for 
your--``So we can follow you as you are caravanning around, we 
want you to be in the system. If you can't live with that, we 
won't hire you.''
    But if the NGO doesn't want them to be in that system, they 
don't have to have----
    Mr. Moser. And we will be satisfied with an aggregate 
number. And that really was what our blind-identity scheme was 
in the past.
    Dr. Snyder. But you are giving up on the blind-identity 
scheme?
    Mr. Moser. Well, it is just a matter of convenience--you 
know, just the data entry, you know, because we were actually 
filling out every, you know--fields in SPOT that, if we do go 
to aggregate numbers, we don't need to do.
    Dr. Snyder. Ambassador Michel, is that--are you on the same 
exact page, identically, as Mr. Moser?
    Ambassador Michel. I think we are----
    Dr. Snyder. Microphone, please; microphone, please; 
microphone, please.
    Ambassador Michel. I am sorry, sir.
    We are using SPOT for those individuals, with the full 
detailed information, when a letter of authorization is 
required.
    Dr. Snyder. Right.
    Ambassador Michel. And we are using the aggregate entry--we 
are including the contract information, and we are including, 
with respect to individuals, the aggregate numbers associated 
with----
    Dr. Snyder. All right. I want to run through the list.
    Anyone requiring a letter of authorization, they are in the 
SPOT system----
    Ambassador Michel. Yes, sir.
    Dr. Snyder [continuing]. Because Mr. Motsek says they have 
to be.
    Any U.S. national or third-country national--do they go 
into the SPOT system?
    Ambassador Michel. Not necessarily.
    Dr. Snyder. Not your policy----
    Ambassador Michel. They would be included in the aggregate 
bit as a normal.
    Dr. Snyder. All right. And if they are an Iraqi or Afghan 
national----
    Ambassador Michel. Aggregate data.
    Dr. Snyder. Aggregate data per contract.
    If, for whatever reasons, a contractor came to you and 
said, ``My 20 employees--we would like to be in that system so 
you could follow us better,'' would you put them in? Or is that 
not happening?
    Ambassador Michel. It is an unlikely contingency that has 
never happened.
    Dr. Snyder. I don't know if I understand this well. But I 
don't feel confused.
    And, on that note, we are adjourned. Thank you.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]


======================================================================




                           A P P E N D I X

                             March 23, 2010

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 57261.001
    
    [GRAPHIC] [TIFF OMITTED] 57261.002
    
    [GRAPHIC] [TIFF OMITTED] 57261.003
    
    [GRAPHIC] [TIFF OMITTED] 57261.004
    
    [GRAPHIC] [TIFF OMITTED] 57261.005
    
    [GRAPHIC] [TIFF OMITTED] 57261.006
    
    [GRAPHIC] [TIFF OMITTED] 57261.007
    
    [GRAPHIC] [TIFF OMITTED] 57261.008
    
    [GRAPHIC] [TIFF OMITTED] 57261.009
    
    [GRAPHIC] [TIFF OMITTED] 57261.010
    
    [GRAPHIC] [TIFF OMITTED] 57261.011
    
    [GRAPHIC] [TIFF OMITTED] 57261.012
    
    [GRAPHIC] [TIFF OMITTED] 57261.013
    
    [GRAPHIC] [TIFF OMITTED] 57261.014
    
    [GRAPHIC] [TIFF OMITTED] 57261.015
    
    [GRAPHIC] [TIFF OMITTED] 57261.016
    
    [GRAPHIC] [TIFF OMITTED] 57261.017
    
    [GRAPHIC] [TIFF OMITTED] 57261.018
    
    [GRAPHIC] [TIFF OMITTED] 57261.019
    
    [GRAPHIC] [TIFF OMITTED] 57261.020
    
    [GRAPHIC] [TIFF OMITTED] 57261.021
    
    [GRAPHIC] [TIFF OMITTED] 57261.022
    
    [GRAPHIC] [TIFF OMITTED] 57261.023
    
    [GRAPHIC] [TIFF OMITTED] 57261.024
    
    [GRAPHIC] [TIFF OMITTED] 57261.025
    
    [GRAPHIC] [TIFF OMITTED] 57261.026
    
    [GRAPHIC] [TIFF OMITTED] 57261.027
    
    [GRAPHIC] [TIFF OMITTED] 57261.028
    
    [GRAPHIC] [TIFF OMITTED] 57261.029
    
    [GRAPHIC] [TIFF OMITTED] 57261.030
    
    [GRAPHIC] [TIFF OMITTED] 57261.031
    
    [GRAPHIC] [TIFF OMITTED] 57261.032
    
    [GRAPHIC] [TIFF OMITTED] 57261.033
    
    [GRAPHIC] [TIFF OMITTED] 57261.034
    
    [GRAPHIC] [TIFF OMITTED] 57261.035
    
    [GRAPHIC] [TIFF OMITTED] 57261.036
    
    [GRAPHIC] [TIFF OMITTED] 57261.037
    
    [GRAPHIC] [TIFF OMITTED] 57261.038
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 23, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. When will the modification be made to the SPOT database 
so that it can record aggregate numbers of personnel working under a 
contract, grant, or cooperative agreement?
    Mr. Motsek. We don't believe that there is a requirement to modify 
the database.
    SPOT will continue to collect contract information and individual 
contractor information associated with contracts, grants, or 
cooperative agreements. Currently, there are two other methods for 
determining an aggregate number of contractor personnel.
    First, USAID and other agencies can provide the aggregate number of 
contractor personnel employed on a specific contract, grant or 
cooperative agreement in a spreadsheet (Excel) form. Information 
provided on the spreadsheet would be ``back loaded'' into SPOT on a 
routine basis. The Total Operational Picture Support System (TOPSS) can 
then be used to generate a report combining information contained in 
SPOT with the aggregate information supplied in the spreadsheet. This 
information would not be available through the automatically generated 
SPOT reports, but rather, would be a manual ``off-line'' report.
    Agencies also have the option to load a mock individual record 
(using a unique identifier that is not traceable to an individual) 
against a contract or grant in the current SPOT database. This unique 
identifier could include minimal information on a contractor's 
citizenship, for example. This process allows the number of contractors 
employed on all contracts, grants, and cooperative agreements to be 
automatically accessible in the SPOT database.
    Dr. Snyder. When will the modification be made to the SPOT database 
so that it can record aggregate numbers of personnel killed or wounded 
while working under a contract, grant, or cooperative agreement?
    Mr. Motsek. We can and do provide the ability to capture this 
information on individual contractors in SPOT--no modification is 
required. Compliance monitoring by contracting activities would help to 
insure this information is captured as a part of the official 
deployment close out.
    Similar to providing aggregate information on numbers of contractor 
personnel, there are two other methods for submitting information on 
contractors killed or wounded while working on a contract, grant or 
cooperative agreement. Agencies can provide the number of personnel 
killed or wounded in a spreadsheet (Excel) form. Information provided 
on the spreadsheet would be ``back loaded'' into SPOT on a routine 
basis.
    Agencies also have the option to load a mock individual record 
(using a unique identifier that is not traceable to an individual) 
against a contract or grant in the current SPOT database. A record 
within SPOT could be updated to reflect an individual's change in 
status (e.g. killed or wounded). Using this process, aggregate numbers 
of personnel killed or wounded would be automatically accessible in the 
SPOT database.
    Dr. Snyder. Please provide a copy of the new Memorandum of 
Understanding to committee staff
    Mr. Motsek. Section 861 of the NDAA for FY 2008 requires the 
identification of common databases among the DOD, DOS, and USAID to 
serve as repositories of information on contracts and contractor 
personnel in Iraq and Afghanistan. The Memorandum of Understanding 
(MOU) was signed on July 8, 2008. In it, the agencies agreed that SPOT 
will serve as the interagency database for information on contractor 
personnel. An updated MOU which incorporates legislative requirements 
from sections 854 of the FY 2009 NDAA and 813 of the FY 2010 NDAA has 
been signed by DOD and DOS and USAID.
    We have provided this updated MOU to your staff.
    Dr. Snyder. Does the Department of Defense desire any legislative 
changes to the current information gathering requirements mandated by 
statute for contracts, grants, and cooperative agreements in Iraq and 
Afghanistan?
    Mr. Motsek. No additional legislation is necessary at this time.
    Dr. Snyder. What specific actions is Department of State taking to 
address the information requirement concerns expressed by non-
governmental organizations working under grants and cooperative 
agreements in Iraq and Afghanistan? What is your timeframe for 
implementing these actions and publishing modified and consistent 
policy, guidance, and business rules?
    Mr. Moser. The Department of State (DOS) is beginning to use an 
aggregate count spreadsheet in which non-governmental organizations can 
enter a number count for local nationals who do not wish to have their 
names entered into the Synchronized Pre-Deployment Operational Tracker 
(SPOT) database. The spreadsheet will include a column where an 
identifier, such as ``Iraqi 1,'' is put in place of an actual name. 
Once this spreadsheet is filled out, the DOS will submit it to the 
Department of Defense for uploading into the SPOT database. The DOS is 
currently piloting this aggregate count spreadsheet process with one 
bureau. If successful, the DOS will implement the process with all 
bureaus that utilize grants and/or cooperative agreements in Iraq and 
Afghanistan. Our policy and business rules will then be edited and 
submitted to the Office of the Procurement Executive. We expect this 
process to be completed by the end of May.
    Dr. Snyder. What actions is your agency taking to ensure that once 
the modifications enabling input of aggregate personnel information 
into SPOT are complete, that such information will be fully entered 
within 60 days?
    Mr. Moser. The Department of State (DOS) is in the process of 
updating its policies and procedures to ensure that aggregate personnel 
information is entered into SPOT in a timely and accurate manner. This 
process will be completed by the end of May, at which time our SPOT 
Program Manager, Grants Officers, and Grants Officer's Representatives 
will be reaching out to non-governmental organizations to ensure the 
new policies are disseminated and information is collected for 
submission to the SPOT database.
    Dr. Snyder. What is your understanding of the requirements imposed 
on the State Department by Section 1248 of the National Defense 
Authorization Act for Fiscal Year 2008? Is the submission of detailed 
personal information and biometrics by Iraqi nationals working under 
U.S. contracts and grants required, or optional?
    Mr. Moser. We share your concern about the issue of employment 
verification of Iraqi nationals that Congress addressed with this bill. 
The Department of State's (DOS) understanding of the requirements 
imposed by Section 1248 of the National Defense Authorization Act is 
that we must request and collect from each federal assistance award 
recipient, information that can be used to verify the employment of 
Iraqi citizens and nationals by such recipient. This includes work 
performed in Iraq since March 20, 2003 under DOS federal assistance 
awards valued in excess of $100,000. The submission of this information 
by the award recipients is strongly encouraged but the current law does 
not have any mechanism to compel individuals to submit their personal 
information. However, DOS has taken a proactive approach to the 
information request. The DOS issued Grants Policy Directive (GPD) 44 in 
December 2009, which provides guidance to non-governmental 
organizations on Section 1248 legislation. The directive includes four 
attachments. The first attachment provides detailed information about 
the requirements of the law and the applicable language which must be 
included in new federal assistance awards. The second attachment 
provides a letter for recipients describing the information collection 
process. The third attachment is the Office of Management and Budget-
approved information collection form (Form DS-7655). This form is used 
by DOS to collect the information required by 1248 legislation. The 
fourth attachment provides instructions to recipients for completing 
the collection form.
    Dr. Snyder. Does the Department of State desire any legislative 
changes to the current information requirements mandated by statute for 
contracts, grants, and cooperative agreements in Iraq and Afghanistan?
    Mr. Moser. The Department of State does not desire any legislative 
changes to the current information requirements mandated by statute.
    Dr. Snyder. What specific actions is USAID taking to address the 
information requirement concerns expressed by non-governmental 
organizations working under grants and cooperative agreements in Iraq 
and Afghanistan? What is your timeframe for implementing these actions 
and publishing modified and consistent policy, guidance, and business 
rules?
    Ambassador Michel. USAID works closely with our implementing 
partners in Iraq and Afghanistan to deliver sustainable results as we 
improve the conditions and lives for the Iraq and Afghan people. In 
order to address our partners' concerns while complying with the law, 
USAID worked diligently with our Department of Defense (DOD) and 
Department of State (DOS) colleagues to reach mutual agreements for 
Agency implementation of the Synchronized Pre-deployment Operational 
Tracker (SPOT). The solution agreed upon on February 26, 2010, after 
numerous discussions, allowed for USAID compliance with the National 
Defense Authorization Act (NDAA) while addressing the concerns of our 
partners--without producing significant administrative and financial 
burdens for our partner community and the Agency.
    At the February 26 meeting and at the hearing on March 23, 2010, 
DOD confirmed that USAID could move forward with providing aggregate 
number information directly into SPOT. USAID plans to continue to 
generate personal data on all implementing personnel who must hold a 
Letter of Authorization (LOA), which is currently applicable in Iraq, 
to conduct their USAID-funded activities. The Agency will also provide 
information required by regulation for those personnel carrying out 
security functions under USAID contracts or grants in Iraq or 
Afghanistan. For all other partner personnel, the Agency will provide 
the aggregate figures into SPOT to comply with the terms of the NDAA 
and the revised interagency Memorandum of Understanding (MOU), which 
USAID signed on March 24, 2010.
    Since agreement for USAID's implementation of SPOT was reached, we 
have met with our implementing partner communities and have revised our 
draft Business Rules for SPOT users. Concurrently, the Agency is 
adapting its Acquisition & Assistance Policy Directive (AAPD) 09-01 for 
Iraq to include Afghanistan. Once the draft is finalized, the review 
and clearance process generally requires 90 days.
    In follow-up discussions on providing the necessary aggregate 
figures directly into SPOT, DOD, State, and USAID met on April 30, 
2010. At that time, DOD informed us that the existing SPOT database 
would not accept aggregate figures. Therefore, the Agency is seeking 
explanation from DOD and is reviewing the costs and benefits associated 
with potential options including: 1) creating a functionality in SPOT 
to receive aggregate data; 2) tracking line by line pseudonym or 
``dummy'' data for each of the more than 23,000 implementing personnel 
we have in Iraq and Afghanistan and keeping this information up-to-date 
in real-time fashion; or 3) providing modification to the reporting 
requirements so that aggregate data responsive to the needs of Congress 
can be provided without actually entering the data into SPOT.
    Dr. Snyder. What action is your agency taking to ensure that once 
the modifications enabling input of aggregate personnel information 
into SPOT are complete, that such information will be fully entered 
within 60 days?
    Ambassador Michel. USAID has made strides to fully staff both the 
Afghanistan and Iraq desks in Washington D.C. and our Missions overseas 
appropriately to meet requirements and input, maintain, and 
troubleshoot aggregate data information directly into SPOT. In 
Washington D.C., the Agency has a dedicated full-time position for SPOT 
implementation in Iraq. For Afghanistan, we are moving forward with 
hiring the appropriate level of human resources to commit to full 
support and implementation of SPOT by early 2011.
    USAID has been working closely with our DOD counterparts since 
agreement on providing aggregate figures was reached in February 2010. 
We will now work to identify the best model possible to meet the NDAA 
requirements without high costs or significant administrative burdens 
on USAID or our implementing partners. We must also ensure that the 
concerns of our development partners who are conducting on-the-ground 
activities are addressed. Once a finalized and acceptable format is 
available, USAID will begin all inputs.
    To ensure a smooth roll-out of SPOT in Afghanistan as well as fully 
inform USAID Contracting and Agreement Officers about the system, USAID 
Contracting and Agreement officers from Iraq, Afghanistan, and those 
who will be heading to these posts met with DOD and their SPOT prime 
contractor during a May 2010 USAID conference for acquisition and 
assistance officers.
    Dr. Snyder. When will USAID fully implement SPOT requirements for 
its contractors, grantees, and cooperative agreement partners in 
Afghanistan?
    Ambassador Michel. USAID seeks to implement SPOT requirements for 
its contractors, grantees, and cooperative agreement partners working 
in Afghanistan as soon as possible and no later than early 2011. In 
order to stand the system up fully for more than 100 active awards, 
USAID and its partners require clear details on how SPOT implementation 
shall work at an aggregate numbers level or in another acceptable 
format. We must receive confirmation from our DOD counterparts before 
we can move forward with input of data, final release of the USAID SPOT 
Business Rules, or the updated AAPD.
    In the interim, USAID will be pleased to provide the committee with 
aggregate figures upon request or in a periodic fashion.
    Dr. Snyder. Does USAID desire any legislative changes to the 
current information-gathering requirements mandated by statute for 
contracts, grants, and cooperative agreements in Iraq and Afghanistan?
    Ambassador Michel. USAID seeks to comply with the law to provide 
the necessary information to Congress concerning our programs and 
activities in Iraq and Afghanistan. USAID can provide aggregate numbers 
in any manner appropriate for the committee. The requirements of a 
common database for USAID, DOD, and State have certainly motivated 
agencies to collaboratively work together to find solutions. It also 
has highlighted the necessary differences in business processes to meet 
our distinct missions in Iraq and Afghanistan. USAID seeks a solution 
that does not inhibit partner participation in our development efforts 
or overburden Agency capabilities (via high administrative or cost 
requirements) in favor of more detailed and more extensive reporting 
requirements. We do hope the committee can accept our aggregate figures 
as reported to the SPOT team as sufficient to meeting the needs of the 
committee and the legislation requiring this common database. Should it 
prove impossible to enable SPOT to accept aggregate data for the 
majority of USAID contractor and grantee personnel in Afghanistan and 
Iraq, and should alternatives prove to be impracticable, we would 
explore the possibility of legislative relief to enable the desired 
information to be provided in a manner compatible with SPOT, but at 
less cost and without raising understandable concerns of USAID's 
implementing partners.

                                  <all>

</pre></body></html>
